      United States Department of Agriculture




Office of Inspector General
Section 632(a) Transfer of Funds
from USAID to USDA for
Afghanistan




                                       50601-0002-16
                                       February 2014
                                        Section 632(a) Transfer of Funds from USAID to
                                                     USDA for Afghanistan

                                                     Audit Report 50601-0002-16

What Were OIG’s
Objectives
The overall objective was to
evaluate FAS’ monitoring and
oversight controls over
Section 632(a) transfer of
funds for activities in           OIG evaluated FAS’ monitoring and oversight
Afghanistan, and evaluate
FAS’ management controls to       controls over Section 632(a) funds for
ensure that funds given to        capacity-building projects in Afghanistan.
Volunteers for Economic
Growth Alliance (VEGA) in
Afghanistan were used in          What OIG Found
accordance with its
cooperative agreement.            In June 2010, the U.S. Agency for International Development (USAID)
                                  transferred $86.3 million to the Department of Agriculture (USDA) for
What OIG Reviewed                 capacity-building activities in Afghanistan. The Office of Inspector
                                  General (OIG) found that senior managers at the Foreign Agricultural
We evaluated FAS’ overall         Service (FAS) were aware of general control weaknesses in 2010
controls over funds transferred   before first receiving the funding, and hired a consulting firm to review
from USAID, and monitoring        FAS processes for managing Section 632(a) funds from USAID.
of funds provided to VEGA,        Although the firm identified several deficiencies in its report issued in
which received the highest        October 2010, FAS did not adequately implement corrective actions to
level of FAS funding. USDA        strengthen its control environment before accepting the funds from
awarded a total of 11 projects    USAID. Specifically, we found that FAS had not implemented
to different organizations.       performance monitoring plans for all projects until over two years after
                                  the first project began, which meant that FAS did not have adequate
What OIG Recommends
                                  methods to monitor recipient accomplishment of program goals and
We recommend that FAS             objectives. Also, FAS did not finalize or implement a grant
forego accepting further          management structure that would facilitate effective monitoring of
Section 632(a) funds until it     recipients' fund use.
has fully implemented a
formal monitoring and             This occurred because FAS managers and senior officials did not
evaluation process and a          clearly understand who was responsible for correcting control
grants management structure.      deficiencies and implementing recommendations. Additionally, FAS
FAS also needs to implement       did not identify or adopt procedures from its other program areas to
the recommendations outlined      assist in the monitoring and oversight. Without adequate management
in the consulting firm’s          controls in place, FAS cannot effectively monitor Section 632(a)-
review.                           funded projects in Afghanistan, and faces difficulty in providing
                                  adequate assurance that the funds are effectively accomplishing
                                  program goals. We did not identify any instances where transferred
                                  funds were not used in accordance with the Memorandum of
                                  Agreement (MOA) or the cooperative agreement. While FAS agreed
                                  with all recommendations, we accepted management decision on one of
                                  the two recommendations.
                            United States Department of Agriculture
                                   Office of Inspector General
                                     Washington, D.C. 20250



DATE:          February 6, 2014

AUDIT
NUMBER:        50601-0002-16

TO:            Phil Karsting
               Administrator
               Foreign Agricultural Service

ATTN:          Kim Cash
               Director
               Compliance, Security, and Emergency Planning Division

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Section 632(a) Transfer of Funds from USAID to USDA for Afghanistan


This report presents the results of the subject audit. Your written response to the official draft
report, dated January 24, 2014, is included in its entirety at the end of this report, and the Office
of Inspector General’s position is incorporated into the relevant sections of the report.

Based on your written response, we accept management decision on Recommendation 2. We are
unable to accept management decision on Recommendation 1. The documentation or action
needed to reach management decision for this recommendation is described under the relevant
OIG Position section.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. For agencies other
than the Office of the Chief financial Officer (OCFO), please follow your internal agency
procedures in forwarding final action correspondence to OCFO.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.

This report contains publically available information and will be posted in its entirety to our
website (http://www.usda.gov/oig) in the near future.
Table of Contents


Background and Objectives ................................................................................ 1
Section 1: FAS Management Controls ............................................................... 4
Finding 1: FAS Needs to Establish a Comprehensive Management Control
Environment for Section 632(a) Funds ............................................................... 4
         Recommendation 1 .................................................................................... 8
         Recommendation 2 .................................................................................... 9
Scope and Methodology ..................................................................................... 10
Abbreviations ..................................................................................................... 13
Exhibit A: Performance Monitoring and Evaluation Plans for Section 632(a)
Projects ............................................................................................................... 15
Agency's Response ............................................................................................. 17
Background and Objectives 
Background
FAS is the lead agency for USDA’s international activities and efforts to help developing
countries improve their agricultural systems and build trade capacity. FAS’ mission is to link
U.S. agriculture to the world to enhance export opportunities and global food security. In
addition to its headquarters in Washington, D.C., FAS has a global network of 96 international
offices, covering 169 countries.

Agriculture is the main source of income for the Afghanistan economy. Despite the fact that
only 12 percent of Afghanistan’s total land area is arable and less than 6 percent is currently
cultivated, more than 80 percent of Afghanistan’s population is involved in farming, herding, or
both. USDA is helping Afghanistan revitalize its agricultural sector through a variety of
activities intended to strengthen the capacity of the Afghan Government, rebuild agricultural
markets, and improve management of natural resources.

As part of the U.S. Government’s Agricultural Assistance Strategy for Afghanistan (the
Strategy), USDA partnered with the Afghanistan Ministry of Agriculture, Irrigation, and
Livestock (MAIL) and other core agricultural institutions to increase agricultural productivity,
improve MAIL’s capacity to provide agricultural services, and help improve rural livelihoods.
With FAS as the lead agency, other USDA agencies are involved with implementing capacity
building activities in Afghanistan, including the National Institute of Food and Agriculture and
the Agricultural Research Service. USDA assistance efforts are a part of the overall
development effort led by the U.S. Agency for International Development (USAID).

In June 2010, under the authority of the Foreign Assistance Act of 1961, USAID transferred
$86.3 million1 to USDA for capacity-building activities in Afghanistan that included developing
and implementing a system to deliver effective extension services to rural clientele, an
agricultural data collection and utilization system, and core curriculum for Afghanistan pre-
deployment training workshops. In support of these efforts, USDA awarded 11 projects to
different organizations. USDA awarded the largest project in November 2010 to the non-
government organization (NGO) Volunteers for Economic Growth Alliance (VEGA), providing
$36 million for a capacity building and change management program in Afghanistan.2 Under
Section 632(a), the Office of Inspector General (OIG) must perform periodic program and
financial audits of the use of transferred funds. When we began our audit work, we undertook
two assignments: one to look at FAS’ general controls over the projects and another to examine
VEGA specifically, due to the large size of its award.



1
  Since the original plan was signed in December 2010, some of the program components have proceeded as
originally conceptualized, while others were either changed or cancelled due to unforeseen circumstances on the
ground in Afghanistan. Consequently, FAS returned $16,904,690 to USAID in August 2011.
2
  VEGA is an NGO that works to mobilize volunteers to support economic growth in developing countries, as well
as design and implement successful technical assistance projects.

AUDIT REPORT 50601-0002-16                                                                                1
We did not audit VEGA's financial statement because the Special Inspector General for
Afghanistan Reconstruction (SIGAR) was performing an in-depth audit of VEGA operations in
Afghanistan. Accordingly, we decided not to duplicate that work and instead relied on the
SIGAR audit for the financial analysis of VEGA. We did continue to audit the programmatic
elements of VEGA's agreement with FAS.

In FY 2013, SIGAR initiated a series of financial audits of costs incurred under U.S.-funded
contracts and grants for reconstruction projects and activities in Afghanistan. Due to the funding
level of FAS’ VEGA cooperative agreement, SIGAR included VEGA in its financial reviews.
In December 2012, SIGAR contracted with Mayer Hoffman McCann P.C. (MHM) to perform a
financial audit of costs incurred under the cooperative agreement between VEGA and USDA for
the period November 2010 to December 2012. In its July 2013 audit report, MHM identified the
following issues, and FAS Compliance officials agreed to conduct a review at VEGA to assess
these issues:

    ·   VEGA’s accounting records had not been closed for the financial transactions incurred
        from November 1, 2012, through December 31, 2012, and financial records were not
        readily available for testing, resulting in a scope limitation. The total cost incurred during
        this period was $2,647,577.
    ·   MHM issued a qualified opinion on the fairness of the presentation of the fund
        accountability statement, based on the identification of $720,501 of questioned costs,
        which represented a material misstatement of the fund accountability statement. MHM
        identified no costs that were deemed to be ineligible.
    ·   Five significant internal control deficiencies were reported. For example, VEGA
        reported hours worked were based on estimates rather than actual hours worked.
    ·   Two compliance findings were reported. For example, several trips to Afghanistan were
        made by program and financial personnel from VEGA and International Executive
        Service Corps (IESC); however, these trips were not supported by monitoring or status
        reports that described the purpose of the trip and the benefit to the cooperative agreement.
    ·   There were two prior engagements that identified a total of five findings. 3 VEGA did not
        implement adequate corrective action for two of the five prior findings.

Because of the significant increase in USAID funding and FAS’ concern about the agency’s
ability to manage its increased responsibilities, FAS contracted with Acuity, a consulting firm, in
2010. Acuity conducted a comprehensive review of all FAS’ Section 632(a) and (b) funding
agreements from early 2003 to August 2010.4 Acuity determined the processes FAS used for

3
  There were two prior engagements with findings and recommendations that were included in the scope of MHM’s
audit. In VEGA’s Single Audit report for 2009, there was one finding for which adequate corrective action had been
implemented and the finding was considered resolved. In USAID’s Pre-Award Survey, there were four observations
identified. Of the four observations, two had corrective actions which have been adequately implemented and two
remain outstanding and were included as findings in MHM’s audit report.
4
  The Foreign Assistance Act of 1961, Section 632, “Allocation and Reimbursement among Agencies,” identifies
methods by which USAID may provide funding to other government agencies. If funds are transferred under
Section 632(a), “Allocations and Transfers,” an MOA is executed and the agency receiving the funds is wholly
accountable for their use. Under Section 632(b), “Reimbursable Agreements,” an Interagency Agreement is
executed and USAID is wholly accountable for the usage of the funds. The agency receiving Section 632(b) funds
is required to provide detailed receipts and reports to USAID in order to receive reimbursement.

2                                                                         AUDIT REPORT 50601-0002-16
managing these funds and how they might be improved. Acuity found that FAS should consider
re-engineering the Section 632 funding process, developing comprehensive standard operating
procedures.5

OIG previously reviewed Section 632(a) funds in a September 2012 report, Section 632(a)
Transfer of Funds from USAID to USDA for Pakistan. We reported that USDA was taking steps
to establish controls to monitor and provide oversight of capacity building projects in Pakistan,
but had not yet implemented a monitoring and evaluation process. As FAS was then working to
develop and implement this process, we were unable to fully assess the adequacy of monitoring
and oversight controls during our 2012 review. Accordingly, we did not make any
recommendations at that time, but agreed that we would continue to monitor FAS’
implementation of this process during our review of Section 632(a) activities in Afghanistan.
Therefore, this report includes recommendations that apply to projects we reviewed in our prior
audit as well.

Objectives
The overall objective of this audit was to evaluate the adequacy of management controls
established by FAS to monitor and provide oversight over Section 632(a) transfer of funds for
activities in Afghanistan. Specifically, we evaluated whether transferred funds were used in
accordance with the Memorandum of Agreement (MOA) between USAID and USDA, dated
June 15, 2010.

We also evaluated the adequacy of FAS’ management controls to ensure that Section 632(a)
funds used by VEGA for the capacity building and change management program in Afghanistan
were being used in accordance with the cooperative agreement between VEGA and FAS.6
We did not identify any instances where transferred funds were not used in accordance with the
MOA or the cooperative agreement. As such, our report contains no findings and
recommendations associated with this portion of our objective.

In June 2012, OIG initiated two audits to evaluate FAS’ controls over Section 632(a) transfer of
funds from USAID for capacity building efforts in Afghanistan: Section 632(a) Transfer of
Funds from USAID to USDA for Afghanistan (50601-0002-16), and the Review of Volunteers for
Economic Growth Alliance Activities in Afghanistan (07099-0001-16). For 50601-0002-16, we
reviewed the overall transfer of funds through a judgmental sample of projects implemented
under the MOA between USAID and USDA. 7 For 07099-0001-16, we specifically reviewed the
cooperative agreement between VEGA and FAS and other governing documents. Because we
found similar internal control issues during both audits, we combined the audit work to issue this
single report detailing the results of both audits.



5
  “Operational Improvement Program Support 632(a) and 632(b) Look Back Report,” October 5, 2010.
6
  On November 24, 2010, FAS entered into a cooperative agreement with VEGA to implement the Capacity
Building and Change Management Program for the Afghanistan Ministry of Agriculture, Irrigation, and Livestock.
7
  On June 15, 2010, USDA and USAID signed a MOA transferring $86.3 million in USAID appropriated funds to
USDA under the authority of Section 632(a) of the Foreign Assistance Act of 1961, as amended.

AUDIT REPORT 50601-0002-16                                                                               3
Section 1:  FAS Management Controls 
Finding 1: FAS Needs to Establish a Comprehensive Management Control
Environment for Section 632(a) Funds

Although senior managers were aware of general control weaknesses in 2010, and a consulting
firm contracted by FAS identified several deficiencies, FAS did not sufficiently strengthen its
control environment before accepting Section 632(a) funds from USAID. Specifically, we found
that FAS had not implemented performance monitoring plans for all projects until over two years
after the first project began, which meant that FAS did not have adequate methods to monitor
recipient accomplishment of program goals and objectives.8 Also, FAS did not finalize or
implement a grant management structure that would facilitate effective monitoring of recipients’
fund use. This occurred because FAS managers and senior officials did not clearly understand
who was responsible for correcting control deficiencies and implementing recommendations.
Additionally, FAS did not identify or adopt procedures from its other program areas to assist in
the monitoring and oversight of the Section 632(a) agreements. FAS program officials
repeatedly stated that high level officials who are no longer associated with this FAS program
made the decision to accept Section 632(a) funds without a more extensive control structure in
place. Senior officials also acknowledged that they were not prepared to manage these funds
when FAS started receiving transfers in 2010. Without adequate management controls in place,
FAS cannot effectively monitor approximately $108.4 million in Section 632(a)-funded projects
in Afghanistan and Pakistan, 9 and faces difficulty in providing adequate assurance that funds are
effectively accomplishing program goals.

According to OMB Circular A-123, managers should develop and maintain control activities to
ensure that the agency’s objectives are met.10 Additionally, the Government Accountability
Office (GAO) Standards for Internal Control state that managers should establish and review
performance measures as part of their ongoing monitoring during normal operations. This
includes regular management and supervisory activities, comparisons, and reconciliations.
Controls should also be aimed at validating the propriety and integrity of both organizational and
individual performance measures and indicators.11

        Performance Monitoring and Evaluation

        When OIG first began auditing Section 632(a) funds in 2011, 12 we focused on funds for
        projects in Pakistan. During that audit, when we questioned FAS program officials about

8
  Audit 50601-0001-16, “Section 632(a) Transfer of Funds for Pakistan from USAID to USDA,” issued
September 27, 2012.
9
  USDA received $20 million in April 2010, $86.3 million in June 2010, and $19 million in March 2011 in
Section 632(a) funding. Due to unforeseen circumstances on the ground in Afghanistan, some projects were
changed or cancelled. Consequently, of the $86.3 million, FAS returned $16,904,690 to USAID in August 2011.
10
   OMB Circular A-123, Management’s Responsibility for Internal Control, December 2004.
11
   GAO, Standards for Internal Control in the Federal Government, November 1999.
12
   Audit 50601-0001-16, “Section 632(a) Transfer of Funds for Pakistan from USAID to USDA,” issued
September 27, 2012. For the Pakistan review, we selected the Foot and Mouth Disease (FMD), Cotton Productivity
Enhancement Program (CPEP) and the Wheat Productivity Enhancement Program (WPEP) projects for our review.

4                                                                       AUDIT REPORT 50601-0002-16
        the processes in place to monitor and track project progress, they explained that
        performance monitoring and evaluation plans (hereafter referred to as "performance
        plans") would be developed with assistance from a consulting firm, Social Impact.13
        Social Impact was tasked with creating an overall framework for monitoring and
        reporting on work in the Fragile Markets, and country-level frameworks for Pakistan and
        Afghanistan, 14 as well as developing individual project performance plans for selected
        projects in Afghanistan and Pakistan.

        In October 2011, during our Pakistan review, Social Impact was directed to stop any and
        all work under the task order due to a protest of the Indefinite Delivery Indefinite
        Quantity (IDIQ) contract. Social Impact resumed work under the task order in
        June 2012. Since the contract work was placed on hold, we were unable to fully assess
        the overall adequacy of project monitoring and oversight controls during that review.
        Accordingly, we did not make any recommendations at that time, but agreed that we
        would continue to monitor FAS’ implementation. After the contract delay, FAS directed
        Social Impact to finalize the individual project performance plans before completing the
        overall framework, given that many of the projects were scheduled to end within a year.
        All performance plans are now complete.

        We noted that performance plans for some of the projects we reviewed had only recently
        been developed and agreed to (see Exhibit A). However, FAS awarded the projects and
        allocated funds beginning in fiscal year (FY) 2011.15 Therefore, none of the projects
        started out having performance plans, and most had delays of over a year before putting a
        plan in place. For example, the performance plan for the agricultural data collection and
        utilization system was finally agreed to and ready for implementation in January 2013.
        That meant that the recipient had only 9 months to implement the performance plan
        before the project’s estimated completion in September 2013, although the project had
        already been running for 15 months. The project was subsequently granted a no-cost
        extension until September 2014.

        FAS officials explained that they conducted informal monitoring by reviewing quarterly
        performance reports submitted by recipients, doing site visits, and convening monthly,
        weekly, or biweekly conference calls. However, these are activities normally done
        through any grant monitoring process. Further, the quarterly performance reports are
        narrative in nature and do not contain sufficient quantifiable measures that relate directly
        to project objectives. Indeed, in some cases, the projects did not have quantifiable
        objectives in their original work plans.

13
   In September 2011, FAS awarded a monitoring and evaluation task order under an Indefinite Delivery Indefinite
Quantity (IDIQ) contract to Social Impact in the amount of $923,555 to assist in improving program planning,
measuring, monitoring and reporting. Specifically, the consulting firm would (1) develop a results-oriented
management framework; (2) develop and/or review performance monitoring plans; (3) develop evaluation plans for
individual projects; and (4) build capacity of FAS on performance management and evaluation.
14
   As of June 2013, the Pakistan and Afghanistan country-level frameworks and the overall Fragile Markets Results
framework are still in draft form.
15
   For the Afghanistan review, we selected the Capacity Building and Change Management Program (CBCMP),
Agricultural Development for Afghanistan Pre-deployment Training (ADAPT), Agricultural Data Collection and
Utilization System (ADCUS) and Afghanistan Agricultural Extension Project (AAEP) projects for our review.

AUDIT REPORT 50601-0002-16                                                                                 5
    For example, one project had an initial work plan that stated a specific objective of
    recruiting and training qualified local employees for a government accounting
    department, but said that the exact number of employees was "to be determined." The
    work plan also stated that the employees were expected to be trained, tested and certified
    using particular software and making expenditures. In the project’s early quarterly
    performance report, the organization stated that 19 accounting employees had been sent
    to training, and a training evaluation would be done on their return. A later report stated
    that 29 civil servants had been trained in government accounting, but did not provide
    information on the training evaluations from the previous report, nor did it speak to the
    software, testing, certification, or other activities described in the work plan. The
    quarterly reports also did not specify what the “to be determined” number of employees
    was, and whether 29 was sufficient. OIG noted that when this organization put its formal
    performance plan in place, these issues were adequately addressed and reported on.
    Therefore, OIG believes that continued use of the performance plans, along with clear
    and measurable objectives, is critical to strong FAS oversight.

    Grant Management Structure

    When FAS accepted Section 632(a) funds for Afghanistan and Pakistan capacity building
    activities, it did not have a grant management structure in place to ensure that the
    recipients complied with the terms and conditions of their award, and that program goals
    and objectives were being met. Due to the significant increase in funds intended for
    Afghanistan and Pakistan, FAS did hire a grant management officer in November 2010.

    While FAS has since taken steps to implement a grant management structure, it has not
    yet finalized or implemented several measures designed to enhance oversight. In fact, as
    of July 2013, none of the Afghanistan project agreements that we reviewed have been
    subject to the new systems and requirements.

    Specifically, FAS has developed, but has not yet finalized, (1) agency regulations and
    directives that would create uniform guidelines for administering Federal financial
    assistance, and (2) an electronic grant management system to manage its non-food aid
    grants and agreements. FAS has three proposed final rules that are still under review by
    the Office of the General Counsel, which would provide FAS with more specific
    authority to carry out international research extension and teaching activities. The
    projects we reviewed were issued under the authority of a general non-profit grant
    regulation that did not always fit their particular circumstances. FAS also has several
    agency directives in draft form that would provide uniform instruction to employees on
    how to use the new grant management system.

    The grant management system is being implemented in three developmental phases. The
    first release only became operational in July 2013, and all new grant agreements will be
    entered into the system. Current grant agreements will be migrated from the old system
    to the new grant management system, and FAS expects the grant management system
    will be fully operational in July or August of 2014. Thus, by the time the grant

6                                                           AUDIT REPORT 50601-0002-16
         management system is fully operational, all of the Afghanistan project agreements we
         selected for review will have reached or nearly reached their agreed upon end date. OIG
         acknowledges that FAS has made progress in this area, but we question whether the
         agency should have awarded these grants and agreements before it had fully implemented
         its grant management structure.

FAS management was aware of many of the issues listed above after receiving the results of an
external review, completed in 2010. In July 2010, FAS paid $168,000 for an external review by
Acuity, a consulting group, because there had been a significant increase in Section 632(a)
funding. FAS leadership stated that they were concerned about the agency’s ability to manage
the increased responsibilities associated with this type of funding. Acuity was tasked to
determine the processes FAS used for managing these funds and how FAS could improve the
processes. In its October 2010 report, Acuity reported the following issues, which overlaps and
corroborates the issues identified earlier:

     ·   FAS did not have a single, comprehensive standard operating procedure (SOP) that
         governed the entire life cycle of the agreements. Other SOPs were not documented, and
         better training on how to carry out the SOPs was needed.
     ·   Inside FAS, there was a perceived lack of communication and cooperation, poorly
         defined position descriptions and roles, and insufficient technology capabilities across the
         board.
     ·   The Office of Capacity Building and Development (OCBD) and the Fragile Market
         Economies Team handle their agreements in a slightly different manner, and neither can
         be certain that they are executing the process properly.
     ·   FAS tracked funds inconsistently.

     Acuity recommended the following actions to FAS:

     ·   Develop a comprehensive SOP capable of managing all types of agreements falling under
         FAS’ responsibility.
     ·   Train the staff involved in implementing the new SOPs.
     ·   Ensure that SOPs stipulate that Section 632(a) agreements are to be handled in the same
         manner as Section 632(b) agreements, and establish a division within FAS that would act
         as USAID does for Section 632(b) agreements.16, 17 This new division would require the
         same documentation and reporting as USAID prior to disbursing funds.

If FAS had timely moved to address the Acuity report’s recommendations, we believe it could
have strengthened the program overall. Although some FAS program officials stated that they
were aware of this report, they were not clear as to whom the report was addressed, and who in
FAS senior management was responsible for tracking the recommendations to ensure that
corrective actions were implemented. Program officials speculated that the report was addressed
to FAS’ senior management officials who were present when the report was issued.

16
  “Operational Improvement Program Support 632(a) and 632(b) Look Back Report,” October 5, 2010.
17
  The study included a total of six recommendations; however, not all were relevant to the objective and scope of
our audit work.

AUDIT REPORT 50601-0002-16                                                                                   7
Accordingly, we asked former and current FAS senior officials what steps had been taken to
implement corrective action. The former Administrator believed he had delegated corrective
action to the responsible Associate Administrator, but he did not follow up with that official
before leaving the agency in April 2011. The former Chief of Staff reported that she left the
agency in September 2010, before the report was issued, and stated that, therefore, she was not
aware of the recommendations. An Associate Administrator reported that she was never
delegated responsibility to implement the recommendations, but stated that FAS was undergoing
reorganizations and personnel changes at the time the report was issued, and that could partly
explain why the recommendations were never addressed. The current Chief Operating Officer
and the Deputy Administrator for OCBD were aware of the report, but did not know who was
responsible for implementing its recommendations. One official stated that, although the agency
has taken significant steps to address the fiscal or financial aspects of grants management, he was
not aware why the programmatic aspects of the recommendations were not adequately
addressed. We believe that this situation illustrates the problems described in Acuity’s report—
FAS’ lack of communication and cooperation, as well as poorly defined roles—problems which
remain uncorrected.

Grant oversight came to the fore in a SIGAR FY 2013 audit report that questioned $720,501 in
costs for a $36 million award to VEGA. SIGAR’s contracted financial audit found internal
control weaknesses at VEGA, such as hours worked were based on estimates rather than actual
hours. Due to the questioned costs and a scope limitation, SIGAR’s contractor issued a qualified
opinion on the fairness of the grantee’s fund accountability statement.

OIG concluded that FAS, when accepting the Section 632(a) funds, was unprepared to properly
administer and monitor the influx of $86.3 million in funds. We believe that without
comprehensive management processes in place, FAS cannot effectively monitor and measure the
progress of its Section 632(a)-funded projects, and faces difficulty in providing adequate
assurance that the funds are effectively accomplishing program goals. Therefore, we maintain
that FAS should not accept additional Section 632(a) funds until it has established an adequate
management control structure and implemented the applicable recommendations from the Acuity
report.

Recommendation 1
Forego accepting further Section 632(a) funds until the agency has fully implemented a formal
monitoring and evaluation process and a grants management structure, including finalizing
agency regulations and directives.

Agency Response
In its January 24, 2014, response, FAS agreed with this recommendation and stated that a formal
monitoring and evaluation process and a grants management structure are required to manage
632(a) agreements properly. FAS recognized the processes in place were not optimal to manage
the $86.3 million Afghanistan 632(a) agreement signed in 2010. However, FAS has a history of
successfully managing a number of smaller 632(a) agreements, and has demonstrated a capacity
to formally monitor and evaluate such agreements. FAS will not accept 632 (a) agreements that

8                                                               AUDIT REPORT 50601-0002-16
go beyond its ability to effectively monitor and evaluate. FAS will enter into 632(a) agreements
only when: (a) the work can be implemented within the time frame allowed for obligating the
funds, (b) a work plan is developed consistent with standardized monitoring and evaluation
processes, and (c) responsibility for implementation and evaluation is located within a unit that
has a track record of managing reimbursable agreements.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to provide an estimated completion date that the agency will fully
implement a formal monitoring and evaluation process and a grants management structure,
including finalizing agency regulations and directives.


Recommendation 2
Implement the recommendations for the processing of Section 632 funds and agreements
outlined in Acuity's review.

Agency Response
In its January 24, 2014, response, FAS agreed with this recommendation and stated that it will
document implementation of all recommendations in the Acuity review by March 31, 2014.

OIG Position
We accept management decision for this recommendation.




AUDIT REPORT 50601-0002-16                                                                  9
Scope and Methodology 
To satisfy our audit requirement, as mandated under Section 632(a), OIG initiated two audits to
evaluate FAS’ management controls over Section 632(a) activities in Afghanistan: Section
632(a) Transfer of Funds from USAID to USDA for Afghanistan (50601-0002-16), and the
Review of Volunteers for Economic Growth Alliance Activities in Afghanistan (07099-0001-
16).18 Because we found similar internal control issues in both audits, we combined the audit
work to issue one report. For both assignments, we conducted fieldwork in Washington, D.C., at
the national offices of FAS and NIFA, and the VEGA headquarters office. We performed our
audit fieldwork between June 2012 and June 2013.

For 50601-0002-16, we identified and evaluated USDA controls over funds transferred from
USAID to USDA for capacity building activities in Afghanistan. Our review focused on
FY 2010 funds provided for capacity building activities in Afghanistan under Section 632(a). To
assess whether FAS had sufficient controls over the projects, we selected 3 of the 11 priority
projects that received the highest funding (for a combined total of $21.5 million) under the spend
plan for $86.3 million for Section 632(a) activities in Afghanistan. 19

For 07099-0001-16, we evaluated the adequacy of FAS’ management controls to ensure that
Section 632(a) funds provided to VEGA for management and implementation of CBCMP were
being used in accordance with the cooperative agreement (totaling $36 million) between t and
FAS. Our review focused on the FY 2011 transfer of Section 632(a) funds from FAS to VEGA.
Initially, we conducted a separate audit of CBCMP because the recipient, VEGA, was an NGO
that received the highest level of funding awarded by FAS.

Sampled Projects                   USDA Agency          Implementing                FY 2010 Funding
                                                        Partner                     Allocation
CBCMP                              FAS                  VEGA                        $36,000,000
AAEP                               NIFA                 University of               $15,591,113
                                                        California – Davis
ADCUS                              FAS                  Purdue University           $3,099,861
ADAPT                              FAS                  California State            $2,853,900
                                                        University - Fresno
Total                                                                               $57,544,874




18
  Foreign Assistance Act of 1961, (P.L. 87-194), Section 509(d), July 2003, as amended.
19
  Since the original spend plan was signed in December 2010, some of the program components have proceeded as
originally conceptualized, while others were either changed or cancelled due to unforeseen circumstances on the
ground in Afghanistan. Consequently, FAS returned $16,904,690 to USAID in August 2011.

10                                                                       AUDIT REPORT 50601-0002-16
To accomplish our audit objectives:

   ·   We interviewed FAS program officials from the Fragile Market Economies Division and
       staff stationed in Afghanistan to obtain an understanding of their oversight
       responsibilities, management controls over capacity building activities, and coordination
       efforts with other USDA agencies, implementing partners, and MAIL. We interviewed
       FAS program officials within the Budget and Financial Management Division to identify
       their role in the funds transfer process, and in the accounting, monitoring, and reporting
       of obligations and expenditures. We also interviewed FAS officials from OCBD’s
       Monitoring and Evaluation staff to determine whether controls are in place to measure
       whether projects are meeting their stated goals and objectives.

   ·   We interviewed NIFA officials from the Center for International Programs and university
       officials from the University of California at Davis, Washington State University,
       Purdue University, and California State University at Fresno to gain an understanding of
       their individual project oversight responsibilities, management controls over projects,
       coordination efforts with FAS and implementing partners, and performance monitoring
       and evaluation plans.

   ·   We interviewed FAS’ former Administrator, former Chief of Staff, Associate
       Administrator, Chief Operating Officer, and Deputy Administrator for OCBD to
       determine what actions had been taken to implement recommendations offered in the
       external review conducted by Acuity.

   ·   We interviewed officials from VEGA, including the President, Chief Financial Officer,
       Director of Finance, the Business Development & Program Manager, and Program
       Manager at IESC (a sub-grantee) to determine their roles and responsibilities and
       evaluate their processes for administering and monitoring CBCMP.

   ·   We reviewed the Memorandum of Agreement, interagency and cooperative agreements,
       work plans, project files, trip reports, quarterly performance reports, quarterly and annual
       financial reports, requests for advance/reimbursement, fund transfer documents, status of
       funds reports, performance monitoring and evaluation plans, and other documentation
       related to capacity building efforts in Afghanistan to evaluate the adequacy of the
       management controls established by FAS to monitor and provide oversight over
       Section 632(a) funds. We also attended Afghanistan country team meetings.

   ·   For each sampled project under Audit 50601-0002-16, we reviewed the status of funds
       reports and a detailed transaction listing for costs incurred and recorded to determine
       whether funds were being used in accordance with the project agreement and could be
       reconciled to supporting documentation. We did not use or rely on any computer
       database information system to support the finding presented in this report. For Audit
       07099-0001-16, we did not perform a financial review of costs incurred under the
       cooperative agreement between VEGA and USDA because we relied on the results of
       SIGAR’s financial review performed by MHM.


AUDIT REPORT 50601-0002-16                                                                  11
     ·   Through interviews with program officials and record reviews, we evaluated
         management controls related to monitoring and oversight, tracking and reporting project
         progress, internal project performance reviews, and coordination efforts with other
         USDA agencies, implementing partners, and MAIL.

     ·   We assessed FAS’ efforts to implement a performance monitoring and evaluation plan
         through interviews with FAS officials from OCBD’s Monitoring and Evaluation staff,
         and reviews of contract award documents, work plans, monthly progress reports, and
         training modules.

     ·   We reviewed applicable legislative history, laws, Government Accountability Office
         reports, the agencies’ internal reviews including Federal Managers’ Financial Integrity
         Act reports, and external reviews including Acuity’s “Operational Improvement Program
         Support 632(a) & 632(b) Look Back Report.”

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on the audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objective.




12                                                              AUDIT REPORT 50601-0002-16
Abbreviations 
AAEP                     Afghanistan Agricultural Extension Project

ADAPT                    Agricultural Development for Afghanistan Pre-deployment
                         Training

ADCUS                    Agricultural Data Collection and Utilization System

ARS                      Agricultural Research Service

CBCMP                    Capacity Building and Change Management Program

CPEP                     Cotton Productivity Enhancement Program

FAS                      Foreign Agricultural Service

FAO                      Food and Agriculture Organization

FMD                      Foot and Mouth Disease

GAO                      Government Accountability Office

IDIQ                     Indefinite Delivery Indefinite Quantity

IESC                     International Executive Service Corps

MAIL                     Ministry of Agriculture, Irrigation, and Livestock

MHM                      Mayer Hoffman McCann P.C.

MOA                      Memorandum of Agreement

NGO                      Non-governmental organization

NIFA                     National Institute of Food and Agriculture

OCBD                     Office of Capacity Building and Development

OIG                      Office of Inspector General

PMEP                     Performance Monitoring and Evaluation Plan

SIGAR                    Special Inspector General for Afghanistan Reconstruction

USAID                    U.S. Agency for International Development

AUDIT REPORT 50601-0002-16                                                          13
USDA   Department of Agriculture

VEGA   Volunteers for Economic Growth Alliance

WPEP   Wheat Productivity Enhancement Program




14                                   AUDIT REPORT 50601-0002-16
       Exhibit A: Performance Monitoring and Evaluation Plans for 
       Section 632(a) Projects 
       Exhibit A shows the project agreement start and end dates and the date the performance monitoring and evaluation
       plan (PMEP) was approved by FAS for each Section 632(a) project we selected as part of our review of Pakistan
       and Afghanistan capacity building activities.20 For the Pakistan review, we selected the Foot and Mouth Disease
       (FMD), Cotton Productivity Enhancement Program (CPEP) and the Wheat Productivity Enhancement Program
       (WPEP) projects for our review. For the Afghanistan review, we selected the Capacity Building and Change
       Management Program (CBCMP), Agricultural Development for Afghanistan Pre-deployment Training
       (ADAPT), Agricultural Data Collection and Utilization System (ADCUS) and Afghanistan Agricultural Extension
       Project (AAEP) projects for our review.



  Sampled              Country          Implementing           Funding           Agreement          Agreement             PMEP
   Project                                Partner              Amount            Start Date         End Date


FMD                 Pakistan          Food and                  $7,140,500    September 2010      September 2015     Not included
                                      Agriculture                                                                    in monitoring
                                      Organization                                                                   and evaluation
                                                                                                                     contract 21
CPEP                Pakistan          ARS                       $9,000,000    June 2011           March 2015         April 2013
WPEP                Pakistan          ARS                       $9,000,000    June 2011           September 2016     Not included
                                                                                                                     in monitoring
                                                                                                                     and evaluation
                                                                                                                     contract22
CBCMP               Afghanistan       VEGA                     $36,000,000    November 2010       June 2014          June 2012
AAEP                Afghanistan       NIFA                    $15, 576,817    May 2011            September 2014     February 2013
ADAPT               Afghanistan       California State          $2,853,900    August 2011         February 2014      Not included
                                      University                                                                     in monitoring
                                                                                                                     and evaluation
                                                                                                                     contract23
ADCUS               Afghanistan       Purdue University         $3,099,861    September 2011      September 2014     January 2013




       20
          The Pakistan projects included in the exhibit are projects we selected as part of our prior review of Section 632(a)
       Transfer of Funds for USAID to USDA for Pakistan, issued September 27, 2012 (50601-0001-16).
       21
          The FMD project was not included in the monitoring and evaluation contract because the Food and Agriculture
       Organization is using its own performance monitoring plan. FAS officials track performance through the quarterly
       progress reports, which include performance measures and progress made toward achieving project outcomes.
       22
           The WPEP project was not included in the monitoring and evaluation contract because the project has its own
       monitoring plan which includes objectives and performance indicators developed by ARS. FAS officials track
       project performance through the quarterly and annual progress reports, which include performance indicators and
       benchmarks that are tied directly to each project objective.
       23
           The ADAPT project was initially included in the monitoring and evaluation contract. However, in January 2013,
       because the contract was delayed for so long, FAS officials determined that having Social Impact develop a PMP
       this late in the implementation stage would be a waste of resources. The ADAPT project will continue to track
       project performance through an existing monitoring and evaluation system established by an independent group at
       California State University.

       AUDIT REPORT 50601-0002-16                                                                                     15
16   AUDIT REPORT 50601-0002-16
Agency's Response 




                 USDA’S
      FOREIGN AGRICULTURAL SERVICE
        RESPONSE TO AUDIT REPORT




AUDIT REPORT 50601-0002-16           17
United States                           DATE:         January 24, 2014
Department of
Agriculture
                                        TO:           Gil Harden
Farm and
Foreign                                               Assistant Inspector General for Audit
Agricultural                                          Office of Inspector General
Services

Foreign                                 FROM:         Phil Karsting /s/
Agricultural
Service                                               Administrator
1400
Independence                            SUBJECT:      Response to OIG Draft Report -- “Section 632(a) Transfer of Funds from
Ave, SW                                               U.S. Agency for International Development to the U.S. Department of
Stop 1001
Washington, DC                                        Agriculture for Afghanistan” (50601-0002-16)
20250-1001

                                        Thank you for providing the Foreign Agricultural Service (FAS) with the Office of
                                        Inspector General (OIG) draft report on “Section 632(a) Transfer of Funds from U.S.
                                        Agency for International Development to the U.S. Department of Agriculture for
                        FAS             Afghanistan.” FAS is pleased that OIG did not find any instances where FAS funds for
                                        Afghanistan were not used in accordance with their intended purpose. FAS exercised
Linking U.S. Agriculture to the World




                                        strong oversight of projects under the 632(a) agreement through the dedicated efforts of
                                        FAS staff in Washington and Kabul, recognizing that these projects were developed and
                                        implemented in a war zone as a part of an urgent whole-of-government effort. The FAS
                                        projects reviewed by OIG have been successful in significantly improving the capacity of
                                        the Ministry of Agriculture, Irrigation and Livestock to carry out its mission and in
                                        supporting the overall U.S. goals in Afghanistan.

                                        The two OIG recommendations, and FAS’s responses to them, are provided as follows:

                                        Recommendation 1:

                                        Forego accepting further Section 632(a) funds until the agency has fully implemented a
                                        formal monitoring and evaluation process and a grants management structure, including
                                        finalizing agency regulations and directives.

                                        FAS Response:

                                        The Agency concurs with the recommendation that a formal monitoring and evaluation
                                        process and a grants management structure are required to manage 632(a) agreements
                                        properly. The Agency recognizes the processes in place were not optimal to manage the
                                        $86.3 million Afghanistan 632(a) agreement signed in 2010. However, FAS has a history
                                        of successfully managing a number of smaller 632(a) agreements, and has demonstrated a
                                        capacity to formally monitor and evaluate such agreements. FAS will not accept 632(a)
                                        agreements that go beyond the Agency’s ability to effectively monitor and evaluate. FAS
                                        will enter into 632(a) agreements only when: a) the work can be implemented within the
                                        time frame allowed for obligating the funds, b) a work plan is developed consistent with


                                                                     USDA is an Equal Opportunity Employer
standardized monitoring and evaluation processes, and c) responsibility for
implementation and evaluation is located within a unit that has a track record of
managing reimbursable agreements.

Recommendation 2:

Implement the recommendations for the processing of Section 632 funds and agreements
outlined in Acuity's review.

FAS Response:

The Agency agrees and will document implementation of all recommendations in the
Acuity review by March 31, 2014.

If you have any questions or concerns regarding this memorandum, or if you need
additional information, please contact James Gartner, FAS’s Audit Liaison, on
(202) 720-0517.




                                            2
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
